App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 19-40483
Summary Calendar
-----------------------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
ISMAEL LECHUGA, also known as Junior 1, also
known as Junior 5, also known as Junior 100,
Defendant-Appellant
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 7:16-CR-876-2
-----------------------------------------------------------------------

(Filed Jul. 9, 2020)
Before OWEN, Chief Judge, and HAYNES and COSTA,
Circuit Judges.
PER CURIAM:*
Ismael Lechuga pleaded guilty to conspiracy to
possess with intent to distribute ﬁve kilograms or more
* Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 2
of cocaine and conspiracy to engage in money laundering. Shortly after his arrest, Lechuga began cooperating with the Government and was in line to receive
credit for acceptance of responsibility under U.S.S.G.
§ 3E1.1(a) and a motion by the Government for a reduced sentence pursuant to U.S.S.G. § 5K1.1. Before
his scheduled sentencing, however, Lechuga, his
brother, and his uncle were involved in warning law
enforcement of a plan stemming from Mexico to kill the
district court judge, Judge Randy Crane. As a result,
Judge Crane received two or three personal brieﬁngs
from federal marshals regarding the purported threat
and experienced inconvenience in his life that he described as “de minimus.”
The investigation revealed that the threat appeared to be a hoax. Judge Crane was informed of that
development and was also told that Lechuga had taken
a polygraph exam that showed he was being deceptive.
Lechuga then moved under 28 U.S.C. § 455(a) and
(b)(1) for Judge Crane’s recusal. After hearing evidence
on the matter, Judge Crane found that the threat was
a hoax orchestrated by Lechuga to give the appearance
of further assistance by him to the Government and to
curry favor at sentencing. Judge Crane denied the motion to recuse.
Based on Lechuga’s involvement in the hoax, the
Government decided not to ﬁle a § 5K1.1 motion and
Judge Crane denied credit for acceptance of responsibility. Lechuga moved under 18 U.S.C. § 3553(a) for a
downward variance from his guidelines range of 360
months to life imprisonment, but Judge Crane denied

App. 3
the request and sentenced him to a total of 360 months
of imprisonment and ﬁve years of supervised release.
Lechuga seeks resentencing on three grounds. He
ﬁrst challenges the denial of his motion to recuse under § 455(a) and (b)(1). The district court’s denial of a
motion to recuse is reviewed for abuse of discretion.
Andrade v. Chojnacki, 338 F.3d 448, 454 (5th Cir. 2003).
Under § 455(a), a judge must “disqualify himself in any
proceeding in which his impartiality might reasonably
be questioned.” § 455(a). A judge abuses his discretion
in denying a motion under § 455(a) if a reasonable person who is cognizant of the relevant circumstances
would harbor legitimate doubts about the judge’s impartiality. Andrade, 338 F.3d at 454.
Section 455(b)(1) requires a judge to recuse himself where he “has a personal bias or prejudice concerning a party, or personal knowledge of disputed
evidentiary facts concerning the proceeding.” § 455(b)(1).
Generally, to warrant recusal under § 455(b)(1), the
judge’s “bias or prejudice” or “personal knowledge of
disputed evidentiary facts” must stem from an extrajudicial source. See Andrade, 338 F.3d at 455; Conkling
v. Turner, 138 F.3d 577, 592 (5th Cir. 1998). Recusal under § 455(a) likewise is generally limited to circumstances that arise from an extrajudicial source. See
Liteky v. United States, 510 U.S. 540, 554 (1994); Andrade, 338 F.3d at 455.
While the presence or absence of an extrajudicial
source is a signiﬁcant factor, an extrajudicial source
alone is neither a necessary nor sufﬁcient condition for

App. 4
recusal. Liteky, 510 U.S. at 554-55. The rule concerning
extrajudicial sources “more or less divides events occurring or opinions expressed in the course of judicial
proceedings from those that take place outside of the
litigation context and holds that the former rarely require recusal.” Andrade, 338 F.3d at 455 (footnote omitted) (citing Liteky, 510 U.S. at 555). “Non-extrajudicial
facts ‘do not constitute a basis for a bias or partiality
motion unless they display a deep-seated favoritism or
antagonism that would make fair judgment impossible.’ ” Tejero v. Portfolio Recovery Assocs., 955 F.3d 453,
463 (5th Cir. 2020) (quoting Liteky, 510 U.S. at 555).
Lechuga contends that Judge Crane’s personal
brieﬁngs from federal marshals during the investigation were extrajudicial in nature. According to
Lechuga, such information qualiﬁed as “personal
knowledge of disputed evidentiary facts” under
§ 455(b)(1) and presented a basis for at least reasonably questioning Judge Crane’s impartiality for purposes of § 455(a).
We conclude that Judge Crane’s personal brieﬁngs
were not extrajudicial. Those brieﬁngs and the information disclosed therein are comparable to the information and ex parte meetings in United States v.
Phillips, 664 F.2d 971, 1000-04 (5th Cir. Unit B Dec. 28,
1981), superseded by rule on other grounds as recognized in United States v. Huntress, 956 F.2d 1309,
1314-17 (5th Cir. 1992), that were determined to be not
extrajudicial. As in Phillips, Judge Crane’s personal
brieﬁngs were for a proper purpose and involved a
threat to kill the judge. See Phillips, 664 F.2d at 1001,

App. 5
1003-04. Additionally, Judge Crane was not an active
participant in the investigation of the threat, as he
merely received brieﬁngs on the investigation. See id.
Judge Crane also indicated in denying the motion
to recuse that the two or three personal brieﬁngs he
received were limited in detail and that the evidence
later presented in court regarding the purported
threat covered and exceeded the information provided
in his personal brieﬁngs. Although Judge Crane’s personal brieﬁngs included disclosure of Lechuga’s polygraph results, Judge Crane did not consider the
polygraph and granted the defense’s motion to exclude
the polygraph information.
Having determined that no extrajudicial source
was involved, we turn to whether there was “deepseated favoritism or antagonism that would make fair
judgment impossible.” Liteky, 510 U.S. at 555. Judge
Crane’s behavior, comments, and rulings in this case
do not meet that standard. See id. The fact that Judge
Crane’s personal safety was the subject of Lechuga’s
hoax also does not mandate recusal. See Phillips, 664
F.2d at 1001, 1004. A reasonable person who is cognizant of the relevant circumstances would not harbor
legitimate doubts about Judge Crane’s impartiality.
See Andrade, 338 F.3d at 454. The denial of Lechuga’s
motion to recuse was not an abuse of discretion. See id.
Lechuga next challenges the denial of credit for acceptance of responsibility under § 3E1.1. We apply a
standard of review that is even more deferential than
clear error. United States v. Puckett, 505 F.3d 377, 387

App. 6
(5th Cir. 2007). The testimony of FBI Agent Joshua
Swims adequately supported the district court’s ﬁnding that the threat was a hoax for which Lechuga was
responsible. Because Lechuga failed to withdraw from
criminal conduct, the district court did not err in denying credit for acceptance of responsibility. See id.
In his ﬁnal claim of error, Lechuga argues that the
Government breached the plea agreement by advocating against credit for acceptance of responsibility and
refusing to ﬁle a § 5K1.1 motion and that the Government breached a cooperation agreement by using his
statements about the threat information to increase
his guidelines range. Because Lechuga did not raise
these arguments in the district court, we review them
only for plain error. See United States v. Cluff, 857 F.3d
292, 297 (5th Cir. 2017); United States v. Barnes, 730
F.3d 456, 457 (5th Cir. 2013).
The Government’s obligation under the plea
agreement to recommend acceptance-of-responsibility
credit was conditioned on Lechuga “clearly demonstrat[ing] acceptance of responsibility.” Lechuga failed
to satisfy that condition, so the Government did not
breach the plea agreement by not recommending the
credit. See Cluff, 857 F.3d at 299-300.
The Government also did not breach the plea
agreement by refusing to ﬁle a § 5K1.1 motion, as the
plea agreement does not contain any terms obligating
the Government to file a § 5K1.1 motion. See United
States v. Long, 722 F.3d 257, 262-63 (5th Cir. 2013). While
Lechuga additionally contends that the Government’s

App. 7
refusal was unconstitutional, he does not identify any
constitutionally suspect reason for the Government’s
§ 5K1.1 decision. See Wade v. United States, 504 U.S.
181, 186-87 (1992); United States v. Urbani, 967 F.2d
106, 109 (5th Cir. 1992). Thus, he has not shown that
the Government relied on an unconstitutional motive.
See Wade, 504 U.S. at 186-87; Urbani, 967 F.2d at 109.
Lechuga’s request to remand the case so that he can
attempt to seek out additional information relating to
the plea agreement is denied. See McIntosh v. Partridge, 540 F.3d 315, 327 (5th Cir. 2008).
Lastly, Lechuga’s plea agreement contained no
mention of a proffer or cooperation agreement, and the
record does not contain any such agreement. Lechuga
has the burden of proving that the underlying facts establish a breach. See United States v. Gonzalez, 309
F.3d 882, 886 (5th Cir. 2002). He has not shown that
his statements regarding the hoax were protected by
the terms of a proffer or cooperation agreement.
AFFIRMED.

